20-7316
wNo

Supreme Court, U.S.
FILED

IN THE
SUPREME COURT OF THE UNITED STATES

FEB 2 6 2021
OFFICE OF THE CLERK

JOSELUIS MORALES

— PETITIONER

(Your Name)
vs.

STUART SHERMAN

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States district Court, Central District of California
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Joseluis Morales #P63392
(Your Name)

RJ Donovan Correctional Facility
480 Alta Rd(Address)

San DiegO; CA 92179
(City, State, Zip Code)

N/A
(Phone Number)

QUESTION(S) PRESENTED
1. Does the Sixth Amendment right to effective counsel on appeal apply to
a case when the appeal takes place years after conviction and the
defendant had a state statutory right to appeal a post judgment ruling
and it was the defendant's first appeal?
2. Did the district court abuse its authority by not addressing state
precedent used to rebut the assumption of a summary denial being on the
merits as explained in Johnson v. Williams (2013) 568 US 289 and in
Harrington v. Richter (2011) 562 US 86?

LIST OF PARTIES

[v/f^All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

*

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-8

REASONS FOR GRANTING THE WRIT

9-15
15

CONCLUSION

INDEX TO APPENDICES

APPENDIX A : Court of Appeals Order Denying COA

APPENDIX B : Magistrate's Final Report

APPENDIX C : District Court Order Adopting Final Report
APPENDIX D : California Court of Appeal Opinion

APPENDIX E : Marsden Hearing Reporter Transcripts
APPENDIX F : Court of Appeal Order Denying Habeas Relief

APPENDIX G : Supreme Court Order Denying Habeas Relief
APPENDIX H : Court of Appeals Order Allowing Claims to be Heard
in Federal Habeas Proceedings

TABLE OF AUTHORITIES

CASES

PAGES

Chaidez v. United States (2013) 568 US 342

9

Cullen v- Pinholster (2011) 563 US 170

9

Douglas v- California (1963) 372 US 353

10

Garza v. Idaho (2019) 139 SCt 738

10

Halbert v. Michigan (2005) 545 US 605

10

Harrington v. Richter (20011) 562 US 86

14

Hill v, Lockhart (1984) 474 US 52

9

Johnson v. Williams (2013) 568 US 289

14

Lafler v. Cooper (2012) 566 US 156

9

Martinez v. Court of Appeal of California (2000) 528 US 152

10

Gomez v. Superior Court (2012) 54 Cal.4t’n 293

14

In re Clark (1993) 5 Cal-4th 750

12

In re Resendiz (2001) 25 Cal.4th 230

13

Kowis v. Howard (1992) 3 Cal.4th 888

14,15

People v. Frierson (1979) 25 Cal.3d 142

12

People v. Martinez (2013) 57 Cal.4th 555

13,14

People v. Patterson (2017) 2 Cal.5th 885

13

People v. Pope (1979) 23 Cal.3d 412

12

People v. Soriano (1987) 194 Cal.App.3d 1470

13

People v. Totari (2002) 28 Cal.4th 876

10

STATUTE AND RULES
AEDPA
California Penal Code, section 1016-5

14
5,6,13

OTHER

PAGES

Appellate Defenders Inc., California. Criminal Appellate
practice Manual (revised July 2007) sections 8.2-8.3

12.13

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix

A

to

the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ X is unpublished.
The opinion of the United States district court appears at Appendix _H
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ x is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

; or,
[ ] reported at ____
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[X| For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 11-23-20
[X] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ____________
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including_______
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No. __ .A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

United States Constitution. Sixth Amendment:
The Assistance of Counsel.

STATEMENT OF THE CASE
This matter pertains to whether effective assistance of counsel is
guaranteed by the Sixth Amendment on a first appeal even though the appeal
took place over a decade later after sentencing and appellate counsel was
appointed by the state court. The District Court ruled that it did not
because the Supreme Court had not ruled on the issue.
On December 13. 1999, in a cause then pending in the California
Superior Court for the County of Riverside, titled PEOPLE v. MORALES, case
number RIF081595, the Petitioner was sentenced to a plea bargain of 29 years

to life with the possibility of parole, for first degree murder and a gun
enhancement. At the time of the offense, the Petitioner was a juvenile
offender, 17 years old, and a junior at his high school. The Petitioner
was a first time offender with no prior delinquent record.
In September of 2012, the Petitioner appeared before a prison
classification committee for an annual review. During this hearing, the
Petitioner was asked whether he would like to "go do your time in Mexico."
The Petitioner inquired why he was being asked and a committee member
replied that there was an INS-ICE hold. The Petitioner declined the offer
and explained that his whole family lived in the United States and were
citizens of the United States and that he had lived in the United States
since he was a month old when his parents brought him.
At the time of Petitioner's plea bargaining process and sentencing,
he had not been given notice of immigration consequences as part of the
plea bargain. With due diligence, the Petitioner discovered that under
state law, criminal attorneys were required to give their clients
immigration warnings if their clients were not natural citizens, before
advising their clients to accept a plea bargain. See California Penal
4

Code, section 1016.5(b).
Prior to being sentenced under the plea bargain, the Petitioner
made an informal request to the court to withdraw his plea and requested
for a Marsden hearing due to conflict with trial counsel. The trial court
releaved trial counsel and scheduled for Marsden proceedings, appointing
new counsel to the Petitioner. When the Petitioner met with his Marsden
counsel, the Petitioner explained that trial counsel had pressured him
to accept the plea bargain when trial counsel refused to prepare for trial
and told the Petitioner to prepare his own defense, meeting with Petitioner
on three occassions to convince the Petitioner to accept the plea because
the Petitioner "had to" with no explanation. The Petitioner also explained
to the Marsden counsel that in attempting to prepare his own defense that
he asked trial counsel to set up a psychological evaluation because he
suffered from post traumatic' stress disorder after witnessing his mother
stabbed to death when he was eight years old. Unknown to the Petitioner at
the time, the symptoms had increased months prior to the offense after
witnessing two killings while walking to the supermarket prior to turning
17 years old. The Petitioner explained to Marsden counsel that trial counsel
told him that there were no funds for a psychological evaluation. The
Petitioner told his Marsden counsel that the day he had accepted the plea
bargain that he had not read it and that he had signed or initialed wherever
trial counsel told the Petitioner to sign or initial and that he had done
so with tears in his eyes.
On December 13, 1999, prior to sentencing, the Marsden hearing took
place. Petitioner's Marsden counsel filed moving papers to withdraw the
plea based on that the Petitioner did not have an interpreter during the
plea bargaining process. The Petitioner never told Marsden counsel that he
5

needed an interpreter. Trial counsel was required to testify during the
Marsden proceeding regarding the plea bargaining stages. At one point,
trial counsel admitted not knowing the Petitioner's place of birth.
(Reporter's Transcripts (RT) at page 6) However, the topic of whether
the Petitioner had been given immigration warnings prior to trial1 counsel
advising the Petitioner to accept the plea bargain was not put in
question by Marsden counsel nor the trial court when Petitioner's birth
place was addressed. (Id.)
Per state law, the Petitioner was allowed to file a motion to vacate
judgment for not being warned of the immigration consequences. California
Penal Code § 1016.5(c). In preparing a motion to vacate judgment, the
Petitioner prepared a petition for writ of habeas corpus to raise claims
of ineffective assistance of counsel against trial counsel and Marsden
counsel, respectively, in support to the motion to vacate judgment. After
filing both the motion and petition, the trial court denied both. On April
15, 2013, the Petitioner filed a timely notice of appeal since by state
law the denied motion was an appealable order.
On July 22, 2015, appointed appellate counsel, Marilee Marshall,
notified the Petitioner by letter of her appointment. On July 31, 2015,
the Petitioner replied by letter, agreeing to Marshall's representation,
and giving Marshall instructions to allow the Petitioner to revise any
brief before finalizing for filing with the court. In this same letter,
the Petitioner explained to Marshall about the claims of ineffective
assistance of counsel. Marshall acknowledged the Petitioner's concerns
regarding the claims of ineffective assistance of counsel. On September 3,
2015, Marshall filed the opening brief without giving the Petitioner the
opportunity to revise the brief. California Court of Appeal, case number
6

ED58677. On September 9, 2015, the Petitioner wrote to Marshall to inquire
why she had filed without his approval; why the issues of ineffective
assistance of counsel were not filed; and whether an addendum could be
filed. Marshall did not respond to this letter.
Instead, the only issue raised by Marshall was based the interpreter
not being present that the Marsden counsel had raised. In its opinion, the
appellate court wrote that it did not understand why Marshall would try to
revive a claim that was "meretricious". Opinion dated March 9, 2016, at
page 7, case number E058677. The appellate court pointed out the fact the

Petitioner had stated himself in the habeas corpus in support to the motion
to vacate that the issue of an interpreter was baseless. Id. The appellate
court recognized that the claims of ineffective assistance of counsel were
not raised by Marshall, including the childhood trauma. Id., at footnote 6.
Being that the interpreter issue was the only claim raised by Marshall, it
denied the appeal, n^er addressing the motion to vacate judgment nor claims
against counsel.
The Petitioner diligently filed for habeas corpus relief in the same
appellate court where he raised claims of dneffective assistance of appellate
counsel against Marshall for not raising the meritorious claims against
trial counsel and the Marsden counsel that were incorporated with the
motion to vacate the judgment. California Court of Appeal, case number
E065697. On May 17, 2016, the appellate court denied relief without an
opinion for the denial. On June 22, 2016, the Petitioner filed a renewed
habeas corpus petition with the state supreme court. On August 24, 2016,
the state supreme court denied relief without an opinion.
On September 9, 2016, the Petitioner filed in the Ninth Circuit
Court of Appeals for leave to file a successive federa habeas corpus since
7

he had filed previously in 2008 on grounds of treaty violation. USDC, Central
Dist. of California, case number 5:09-cv-01109. The Court of Appeals ruled
that the claims against appellate counsel had not ripen until the opening
brief had been filed, and the motion for leave to file a second or successive
federal habeas corpus was unnecessary. Court of Appeals, Ninth Circuit, case
number 16-73184. The Court ordered for the proposed federal habeas corpus
to be transfered to the district court and deemed filed on September,24,
2016. See Order dated May 26, 2017.

8

REASONS FOR GRANTING THE WRIT
I. EFFECTIVE ASSISTANCE OF COUNSEL ON APPEAL IS GUARANTEED BY THE SIXTH
AMENDMENT REGARDLESS OF WHEN A FIRST TIME APPEAL IS EXERCISED.
In adopting the magistrate's reports, the district court ruled that
there is no clearly established Supreme Court precedent holding that the
Sixth Amendment right applies to an appeal from a post conviction motion
denial. (Appendix-B; Magistrate's Final Report, at page 14:9-11)

However,

the right to competent counsel has been clearly established by the Strickland
standard. See Cullen v. Pinholster (2001) 563 US 170, 131 S.Ct. 1388, 1403.
The Strickland standard is the "general rule" to all claims of ineffective
assistance of counsel and all other interpretations or applications of the
Strickland standard are called the "garden variety". Cf. Chaidez v. United
States (2013) 568 US 342, 185 L.Ed.3d 149, 156. The district court did not
address either citation above when adopting the magistrate's reports.
(Appendix-C, District Court Order) The district court has confused the
"garden variety" to mean what is clearly established by the Supreme Court.
For example, in Lafler v. Cooper, the lower

state court had applied what

it believed to be the standard in Hill v. Lockhart, 474 US 52, but this
Court corrected the misapplication to be contrary to Strickland. 566 US
156. Therefore, the district court ruling that there is no clearly
established federal law by the Supreme Court on an ineffective assistance
of counsel claim is the corollary to the Strickland standard being
nonexistant.
The district court ruled that the Petitioner was "confusing" a state
law statutory right to appeal a particular type of order with the Sixth
Amendment Jurisprudential concept of a "first appeal of right", and that
it need not and would not resolve the question of whether the Supreme Court
9

Sixth Amendment jurisprudence actually does or does not govern the
Petitioner's claim. (Appendix-B, at page 14:5-13) However, there is no
federal constitutional "first appeal of right" or any appeal after a
criminal conviction unless it is provided by state law. See Martinez v.
Court of Appeal of California (2000) 528 US 152, 160; Douglas v.
California (1963) 372 US 353; also Halbert v. Michigan (2005) 545
US 605 (appeal after guilty plea). The district court did not address
the precedent above.
Instead, the district court ruled that the Petitioner had waived
his right to appeal by accepting the plea bargain. (Id.

at page 13:7-11)

An appeal waiver that does not bar claims outside its scope follows from
the fact that although the analogy may not hold in, all respects, plea
bargains are essentially contracts. See Garza v. Idaho (2019) 139 S.Ct.
738, 203 L.Ed.3d 77, 86. And as with any contract, the language of appeal
waivers can vary widely, some waiver clauses leaving many types of claims
unwaived. Id. Here, the Petitioner filing the motion to vacate judgment
after being notified of the INS-ICE hold, was implicit that the plea
bargain contract was not completely disclosed to the Petiitoner. The
fact that the state supreme court holds that the denial of such a motion
is an appealable matter proves that the Petitioner did not waive all
rights to appeal. See People v, Totari (2002) 28 Cal.4th 876. Therefore,
the Petitioner had a statutory right to appeal after a guilty plea was
entered. Id.; Halbert v. Michigan, supra. The right to appeal is "purely
a creature of statute". Martinez v. Court of Appeal, supra. Due to that
this statute exists

the right to effective assistance of counsel on '

appeal is guaranteed by the Sixth Amendment. Douglas v. California, supra.

10

It is the Petiitoner's understanding that the district court made
its analogy based on the misconceptions of when an appeal should take place.
The district court ruled that had the Petitioner appealed the conviction in
1999, that the initial appeal would have the Constitutional protections
of effective assistance of counsel on appeal. (Appendix-B, at page 13:7-10)
However, the district court did not give any ruling on when an appeal
must take place as guided by clearly established federal law. The district
court and the state concede that the Petitioner had a right to appeal the
denied motion. (Appendix-B, at page 13:24-25)

II. APPOINTED APPELLATE COUNSEL ON APPEAL WAS INCOMPETENT PREJUDICIALLY
AFFECTING THE RESULT ON APPEAL.
The district court ruled that appointed appellate counsel, Marshall,
was not appointed to raise claims separately on habeas corpus and was solely
appointed in connection with the appeal of the trial court's order denying
the motion to vacate. (Appendix-B, at page 16) The district court reasoned
that Marshall was not obligated to raise the ineffective assistance of
counsel claims against trial counsel and the Marsden counsel because such
claims are not allowed to be raised in the motion to vacate judgment. (Id.,
at page 14:23-28)
First and foremost, like the district court ruled, Marshall was
appointed in connection with the appeal from the trial court's order to
deny the motion to vacate judgment. However, Marshall did not file anything
in connection to the motion to vacate jdugment and instead filed the issue
of an interpreter. The appellate court ruled that it did not understand
why Marshall would file such a meretricious claim. (Appendix-D, Opinion
at page 7, case number E058677)
11

The Petitioner's motion to vacate judgment incorporated the claims
against counsel via a petition for writ of habeas corpus. The California
supreme court has long held that claims against trial counsel must be filed
simultaneously and or in conjunction with the opening brief on habeas' corpus
when it is brought to the appellate counsel's attention. See People v. Pope
(1979) 23 Cal.3d 412, 426; People v. Frierson (1979) 25 Cal.3d 142, 158.
In "noncapital cases appointed [appellate] counsel in this state who are
aware of a basis for collateral relief should not wait for the outcome of
the appeal to determine if grounds for collateral relief exist. While they
have no obligation to conduct an investigation to discover if facts
outside the record on appeal would support a petition for habeas corpus
or other challenge to the judgment, if they learn of such facts in the
course of their representation they have an ethical obligation to advise
their client of the course to follow to obtain relief, or to take other
appropriate action." See In re Clark (1993) 5 Cal.4th 750 fn20. Here,
Marshall did not follow the ethical obligation to advise the Petitioner
on what to do nor took action to raise the claims against trial counsel
and the Marsden counsel. Not only was Marshall notified by the motion
to vacate and the habeas incorporated of the claims against counsel, but
the Petitioner wrote to Marshall and notified her about those claims.
Marshall completely failed to address why she did not file those claims
after the Petitioner inquired why she had not raised them in conjunction
to the appeal. The agency that contracted Marshall to represent the
Petitioner on appeal requires for appellate counsel "to pursue remedies
outside of the four corners of the appeal, including habeas corpus, when
reasonably necessary to represent the client appropriately." See Appellate
Defenders Inc., California, Criminal Appellate Practice Manual (July 2007
12

revised) §§ 8.2-8.3.
"The Attorney General's suggestion that § 1016.5 [motion to vacate
judgment] be construed as a categorical bar to immigration based ineffective
assistance of counsel would deny defendants who prove incompetence and
prejudice a remedy for specific constitutional deprivation viz, the Sixth
Amendment right to effective counsel. Any construction that engender such
constitutional infirmity is to be avoided." See In re Resendiz (2001) 25
Cal.4th 230, 241-242. "If anything, the statutory scheme [of § 1016.5]
contemplates an enhanced, not a diminished, role for counsel." People v.
Patterson (2017) 2 Cal.5th 885,
(1987) 194 Cal.App.3d

; Resendiz, supra; People v. Soriano

1470, 1478 (habeas corpus filed in conjunction to

appeal granted claims of ineffective assistance of counsel for failing to
advise client of immigration consequences).
"The generic advisement [on a plea form] under § 1016.5 is not
designed, nor does it operate, as a substitute for such advice [from
counsel]." Patterson, supra. The "state of mind" of the defendant at the
time of the plea that bears on the defendant is the evidence required in
evaluating a later claim that the defendant would not have entered the plea
had he understood the plea would render the defendant deportable, see People
v. Martinez (2013) 57 Cal.4th 555, 565-566. Here, the Petitoner had asked to
withdraw his plea because he had felt pressured by trial counsel to accept
it when trial counsel refused to prepare for trial. The trial court held
a Marsden hearing to review whether the plea was properly entered. The
Petitioner's "state of mind" was to have a trial and would not have entered
into the plea bargain had he been told of the immigration consequences.
Marshall had a simple task at hand. Raising the interpreter issue was
complete incompetence because in the habeas corpus in support to the motion
13

to vacate judgment, the Petitioner explained to the trial court that the
interpreter claim raised by the Marsden counsel was baseless and counsel's
idea. Had Marshall read the habeas corpus, Marshall would have known that
that raising the interpreter issue was "meretricious" as the appellate
court stated. (Appendix-D, at page 7)
The prejudice here is that the Petitioner never had the motion to
vacate judgment and its supporting claims heard on appeal. Had Marshall
acted competently, Marshall would have presented on appeal the Petitioner's
"state of mind" at the time of the plea. People v. Martinez, 57 Cal.4th,
at 565-566. Had Marshall filed the appeal based on the Petitioner's "state
of mind" the appeal would have been granted.
III. STATE COURT SUMMARY DENIALS WERE NOT ON THE MERITS PER STATE LAW THAT
REQUIRES DE NOVO REVIEW AND NO AEDPA DEFERENCE IN FEDERAL'COURT.
The district court ruled that state habeas corpus claims raised
agsinst Marshall were decided on the merits by the state courts and have
AEDPA deference. (Appendix-B, at page 7:24-26)
This Court holds that "in the absence of any indicator or state law
procedural principles to the contrary", summary denials by state courts
will be considered to be on the merits and AEDPA deference afforded to
those decisions. See Johnson v. Williams (2013)568 US.289 , 133 S.Ct. 1088,
1096; Harrington v. Richter (2011) 562 US 86, 131 S.Ct. 770, 784-785.
Under California law, the summary denial of a habeas corpus does not have
res judicata effect in future proceedings. See Gomez v. Superior Court
(2012) 54 Cal.4th 293 fn6(citing Kowis v. Howard (1992) 3 Cal.4th 888, 893).
A summary denial is not on the merits even if it is intended to be or if
it is accompanies by an explanatory comment, it is not regarded as a

14

formal opinion. Kowis v. Howard, 3 Cal.4th, at 985. A summary denial of a
writ petition is not law of the case. Id., at 899.
The district court did not address the state law cited by the
Petitioner regarding summary denials. (Appendix-C) Instead, like all the
other issues raised herein, were rubber stamped and pushed through after
the magistrate submitted its reports without addressin the objections by
the Petitioner.

CONCLUSION
The petition for writ of certiorari should be granted.

Respectfully submitted,
Dated:

(6-^1

Joseluis Morales
(pro se)

15

